October 22, 2009

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Management of Mail Transport Equipment –
         Pacific Area (Report Number NL-AR-10-001)

This report presents the results of our self-initiated audit of Management of Mail
Transport Equipment (MTE) (Project Number 09XG008NL000). The objective was to
assess the effectiveness of the Postal Service’s management and control of MTE,
including distribution, flow, security, and inventory management. This report focuses on
the Pacific Area.1 See Appendix A for additional details about this audit.

Conclusion

The Pacific Area’s management and control of MTE was not effective. We determined
the Pacific Area developed standard operating procedures (SOP) for MTE, but did not
always ensure compliance with inventory and accountability processes nor ensure
assets were always safeguarded.2 Specifically:

       MTE inventories were inaccurate since management only based them on
        estimated “on hand counts” and did not include equipment from some plants or
        any major mailers and other external customers.

       Although plants generally kept records of MTE distributed to mailers and
        customers, they did not have visibility over the MTE flow once it left the plants
        and did not use the records for managing, tracking or reconciling MTE and
        establishing accountability.

       Security controls were not sufficient to ensure the safeguarding of MTE.

We determined these conditions occurred because:




1
  The Postal Service views MTE as a national asset and it is procured and allocated to areas by Headquarters.
Further, areas and plants are responsible to properly inventory, account for, and safeguard MTE.
2
  The Postal Service’s moves more mail east to west, resulting in plants in the west having more MTE than needed to
meet operational requirements. The Pacific Area normally has a surplus of MTE, requiring excess MTE to be
managed, identified, and redistributed (transported back east where there is generally a deficit of MTE).

        This report has not yet been reviewed for release under FOIA or the Privacy Act.
        Distribution should be limited to those within the Postal Service with a need to
        know.
Management of Mail Transport Equipment –                                                         NL-AR-10-001
 Pacific Area



         Plant managers did not always provide sufficient priority, resources, training, and
          oversight to effectively manage MTE.

         Area management did not assign sufficient resources to monitor MTE activities
          and compliance with all SOP requirements.

         The Area’s MTE SOP does not fully address all necessary controls over MTE.

         The Postal Service does not have a nationwide comprehensive inventory system
          for identifying and tracking all MTE to support Area and local oversight
          responsibilities.3

As a result, delays may impact mail processing and transportation because some plants
may not have enough MTE to move the mail. Additionally, some plants may have too
much MTE, which the Postal Service could redistribute to the locations needing the
equipment. In addition, the Postal Service may be unnecessarily purchasing MTE
because of unaccounted for or improperly stored equipment. Further, some MTE
assets in the Pacific Area are at risk of loss, theft, and misuse and could present a
danger to public safety and security and reflect poorly on the Postal Service’s brand and
public image.4 See Appendix B for our detailed analysis of this topic.

We recommend that the Vice President, Pacific Area Operations:

    1. Reinforce national Mail Transport Equipment (MTE) policies and procedures and
       the Area’s MTE standard operating procedures (SOP) that require plant managers
       to provide sufficient priority, resources, training, and oversight to effectively manage
       MTE, including:

         Designating and training MTE coordinators, ensuring that sufficient time and
          resources are allocated to perform all of the duties the SOP requires, and
          ensuring that management establishes controls for monitoring MTE coordinators’
          activities and results.

         Conducting weekly “on hand” inventory counts of MTE at all plants as required by
          the SOP to provide for the estimated MTE inventory at plants within the Pacific
          Area.




3
  We will conduct a subsequent audit to review and assess overall MTE management from a nationwide perspective
and will provide recommendations regarding a comprehensive inventory and tracking system at that time.
4
  The essence of the Postal Service brand is customer perception and the control and management weaknesses
above could pose a high risk for the public to negatively perceive the Postal Service’s ability to properly manage,
account for, and protect their assets.


                                                         2
Management of Mail Transport Equipment –                                    NL-AR-10-001
 Pacific Area



2. Revise the Pacific Area Mail Transport Equipment (MTE) standard operating
   procedures to address all necessary MTE controls, including:

      Requiring major mailers to provide weekly inventory counts that will help form the
       basis for an estimated MTE inventory within the Pacific Area.

      Addressing accountability controls, including authenticating Postal Service
       customers, validating customer MTE needs, and tracking and reconciling MTE
       loaned to mailers and other external customers.

      Addressing security controls to safeguard MTE, including securing MTE in
       restricted areas, ensuring MTE is not unnecessarily exposed to the elements,
       preventing mailers and other external customers from having free access inside
       the facility and outside areas, and securing the facility’s perimeter.

3. Reinforce that the Distribution Networks Office should assign sufficient Area
   resources to monitor management of Mail Transport Equipment (MTE) and
   compliance with all standard operating procedures, including ensuring complete
   and reliable weekly inventory counts, following up on incomplete or questionable
   inventory counting and reporting, and providing necessary guidance and training to
   designated plant MTE personnel.

Management’s Comments

Management generally agreed with our findings and recommendations. Management
responded that the Pacific Area understands the importance and financial impact of an
effective MTE process. Further, management stated that many of the MTE issues
addressed require updating policies and procedures at the national level to ensure
uniform requirements, especially those policies impacting mailers. Additionally,
management cited the need to weigh the cost against the benefits when developing
controls in view of the recent Postal Service reorganization and reduction in staff at the
Distribution Networks Office.

Management stated they will follow up with and train district MTE coordinators to ensure
an effective MTE process. Management also noted that a complete and reliable MTE
inventory is physically impossible, because the MTE inventory is fluid and is in a
constant state of turnover. However, management stated the Pacific Area currently
requires all plants to conduct a weekly “on-hand” inventory count and provide their
counts to the Area for consolidation. In addition, management stated they have taken
steps to enhance monitoring of and compliance with this requirement. Management
stated that the benefit of securing the perimeters of Pacific Area facilities may not be
cost effective.

Management also stated that they replaced all SOPs with updated Operating
Instructions (OI). Specifically, they noted that their MTE SOP, which was cited in the


                                             3
Management of Mail Transport Equipment –                                 NL-AR-10-001
 Pacific Area


report, was replaced by MTE OI on June 16, 2008. Management acknowledged some
employees in the field still may have been following the outdated SOP. Management’s
comments, in their entirety, are included in Appendix D.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report, and their corrective actions
should resolve the issues identified. We agree with Postal Service management that
the MTE management issues are far-reaching and require national coordination and
oversight, and we will address national MTE issues in a capping report to Postal Service
Headquarters. Additionally, we acknowledge that the Postal Service’s current financial
condition and reduced staffing make it difficult to perform all necessary monitoring and
control activities and require the balancing of cost and benefits. Regarding the “on
hand” inventory counts, we agree with the Pacific Area that this is a necessary and
appropriate tool to manage and redistribute MTE inventory until a national inventory
process is implemented. Moreover, we agree the Pacific Area’s response to review
MTE staging areas and additional security measures estabished meet the intent of the
recommendation. Full or partial perimeter security should be considered if cost
effective.

In reference to management’s replacement of the SOP with OI in June 2008, the Pacific
Area did not raise any concerns, or bring to our attention, that the SOP was replaced
and was no longer in force. Regardless of when the Pacific Area’s SOP was replaced,
the national MTE requirements contained in the Postal Operations Manual (POM) are
similar to the SOP requirements and could assist in the effective management of MTE
until Postal Service Headquarters can implement new MTE processes. It should also
be noted that the Pacific Area’s June 2008 OI does not address many of the MTE
requirements previously addressed in the SOP, including the requirement to conduct
weekly on hand inventory counts. However, we found that although the inventory
counts are not addressed in the the June 2008 OI, the Area still requires them. In
addition, the counts are still included as a requirement in the POM.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           4
Management of Mail Transport Equipment –                                NL-AR-10-001
 Pacific Area



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Susan M. Brownell
    Drew T. Aliperto
    Evelyn J. Murphy
    Cynthia F. Mallonee
    James R. Hardie
    Bill Harris




                                           5
Management of Mail Transport Equipment –                                                           NL-AR-10-001
 Pacific Area


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Mail transport equipment consists of various types of containers used to hold mail
during processing and transportation within or between Postal Service facilities, its
contractors, its mailers, and other external customers.5 The Postal Service purchased
over 345 million pieces of MTE totaling over $908 million over the last 9 years.

The various types of MTE include:

        Pallets made of plastic, wood, or chipboard;
        Containers with wheels of varied sizes, shapes, and material (known as “rolling
         stock”);
        Trays of varying sizes for letters and flats (known as “tubs”);
        Mailbags (known as “sacks”); and
        Cardboard boxes and fiberboard boxes (known as “Postal Paks”).




                           Excess plastic pallets stored at mailer FedEx Smart Post.
                          There were approximately 8,000 pallets, or a 4-week supply.
                                         Chino, CA, January 15, 2009


Generally, the useful life of MTE will vary considerably based on type, and some types
of MTE, such as rolling stock (containers on wheels), can be in service for as long as
20 years. Individual MTE items cost the Postal Service from less than $1 to about
$1,400 and are expensed in accordance with Postal Service accounting policies and
practices rather than being capitalized. As such, the Postal Service does not carry MTE
inventory as an asset for financial reporting purposes and does not know the size or
value of its MTE inventory. Further, MTE is viewed within the organization as being
consumable or expendable items.

MTE Management and Oversight. Postal Service headquarters, under the direction of
the Vice President, Network Operations, is responsible for establishing policy for
managing all aspects of MTE, covering the operation, transportation, distribution,
delivery, inventory, storage, and reporting of MTE.6 The Postal Service developed

5
  MTE is used at about 400 processing facilities; 33,000 post offices; and numerous mailers, printers, consolidators,
and other external customers nationwide. While the Postal Service loans MTE to mailers and other external
customers as a courtesy, it may not give those entities MTE for their internal operating use or personal convenience.
6
  Postal Operations Manual (POM), Section 587.1.



                                                          6
Management of Mail Transport Equipment –                                                           NL-AR-10-001
 Pacific Area


national guidelines nearly 20 years ago, delineating headquarters, area, plant, and
mailer responsibilities for MTE. The same guidelines are still in effect even though
some provisions may be outdated due to changes in the operating environment.

The Postal Service’s nine geographical areas, through their Distribution Networks
Offices (DNO), are responsible for ensuring compliance with Postal Service MTE policy
at the field level. The area DNOs are required to provide guidance to plants and each
plant is responsible for the daily management of MTE at its facility, ensuring compliance
with all national MTE policies. Some Postal Service areas, including the Pacific Area,
have developed local SOP to help ensure compliance with nationwide requirements.

MTE Accounting and Inventory.  The Postal Service initially established the Equipment
Inventory Reporting System (EIRS) to enable the control and management of MTE by
redistributing MTE from areas with a surplus to areas with a deficit. However,
management determined the EIRS system and its related reporting functions were no
longer necessary with the implementation of the Mail Transport Equipment Service
Center (MTESC) network around 1997, and decided to rely on data provided by the
MTESC network for visibility into the MTE program.7 However, there is limited visibility
of MTE outside of the MTESC network.

To address its continued lack of MTE inventory management, controls, and visibility,
Postal Service headquarters recently explored development of the MTE On-line
Ordering (MTEOR) system. However, due to the Postal Service’s current financial
situation, management put the MTEOR system initiative on hold in April 2009.

MTESC Network. The MTESC network is a centrally managed system of 23 contractor-
operated service centers designed to supply pallets, tubs, mailbags, and other MTE to
mail processing facilities and certain large customers nationwide. The MTESC network
delivers equipment to users with dedicated transportation; recovers equipment that is no
longer needed or serviceable; and then processes it for inventory or redistribution. The
activities of the centers are tracked through the Mail Transport Equipment Support
System (MTESS),8 which forms the Postal Service’s only formal visibility of MTE
inventory. However, the system is limited in that it only tracks inventory physically at
MTESCs and does not provide visibility of MTE at facilities, with mailers and other
external customers, or in-transit.




7
  Although no longer a functioning computerized system, the EIRS framework some Postal Service areas, including
the Pacific Area, still use it to manually track and report inventory counts because of the limitations of the MTESC
network inventory system.
8
  MTESS information, while severely limited in scope of coverage, is still used by Headquarters to determine MTE
requirements nationally and forecast for ordering new MTE annually. We will review and address national MTE
controls in a subsequent audit.


                                                          7
Management of Mail Transport Equipment –                                                           NL-AR-10-001
 Pacific Area


OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the effectiveness of the Postal Service’s management and
control of MTE, including distribution, flow, security, and inventory management. This
report focuses on management and control of MTE in the Pacific Area.

To accomplish our objective, we conducted interviews at Headquarters with Postal
Service management and representatives from Network Operations (Logistics – MTE
and Mail Processing), Delivery and Post Office Operations, International Mail
Operations, and the Business Service Network (BSN). We also conducted interviews
with the Pacific Area DNO, Santa Ana District BSN, and Postal Inspection Service to
obtain an understanding of the MTE program and its history. We reviewed MTE
operations at 20 Postal Service facilities in the Pacific Area9 to assess the control
environment in the Postal Service network and made physical observations at 16 of
these facilities. We also visited and observed MTE operations at eleven mailers,
two MTESCs, and one Terminal Handling Service Center in the Pacific Area. See
Appendix C for a list of facilities visited.

In addition, we reviewed national and area policies, procedures and documents,
including the POM, Pacific Area MTE SOP,10 the Pacific Area Operating Instructions,
Material Management Handbook, and various Area MTE reports and information.
Further, we reviewed over 9 years worth of MTE purchase data provided by
headquarters and dating back to FY 2000 to help estimate the scope, size, age, and
make-up of MTE inventory at the national level.

During our audit, we noted control weaknesses that constrained our work. For example,
there is no complete, accurate, or reliable inventory of MTE at either the national or
Area level and we were unable to determine the scope of MTE within the Pacific Area.
However, we compensated for internal control weaknesses and data limitations by
applying alternate audit procedures including observations, examination of source
documents, discussions with responsible officials, a review of MTE purchases nationally
covering the past 9 years, and communication with the Postal Inspection Service and
Headquarters’ MTE group on their respective MTE efforts.

We conducted this performance audit from December 2008 through October 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our


9
  Facilities reviewed include Processing and Distribution Centers, Processing and Distribution Facilities, and Bulk
Mail Centers.
10
   In addition to MTE inventory, ordering, and accountability requirements, the SOP addresses MTESC operations
and safety. We did not review these two requirements since they were outside the scope of our audit objectives.


                                                          8
Management of Mail Transport Equipment –                                                            NL-AR-10-001
 Pacific Area


observations and conclusions with management officials on September 10, 2009, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

We issued the OIG report Radio Frequency Identification Technology: Asset
Management (Report Number DA-AR-09-002, dated December 24, 2008). The
objective of this audit was to determine the opportunities available for the Postal Service
to adopt Radio Frequency Identification (RFID) technology to manage assets and lower
operational costs. The report determined the Postal Service has opportunities to adopt
RFID technology to improve the management of MTE inventories and minimize long-
standing pallet losses. Additionally, the report concluded the Postal Service does not
have an effective inventory tracking system to curtail pallet loss. The OIG reported
about $127 million in funds put to better use, and management agreed with our findings
and recommendations.11




11
  The Postal Service is still exploring RFID technology for pallets, but placed plans for implementation on hold due to
the Postal Service’s current financial situation.


                                                           9
Management of Mail Transport Equipment –                                                            NL-AR-10-001
 Pacific Area


                                 APPENDIX B: DETAILED ANALYSIS

More Effective MTE Inventory Management and Control Needed

The Pacific Area’s management and control of MTE was not effective. We determined
Area management has taken some positive steps to help manage MTE by developing a
SOP for MTE. However, the Pacific Area did not always ensure compliance with
inventory and accounting processes and did not fully execute their responsibilities to
control and safeguard MTE assets.12

MTE Inventory On-Hand Counting and Reporting. We determined that MTE inventories
were inaccurate since management based them only on estimated weekly on-hand
inventory counts, which did not include equipment from some plants or any major
mailers and other external customers. Specifically, we found six of 20 plants did not
report the required on-hand weekly inventory counts13 and those that were conducted
did not include MTE loaned to major mailers and other external customers.

The Pacific Area used “on-hand inventory counts” because a nationwide comprehensive
inventory system for identifying and tracking all MTE did not exist. The inventory counts
were designed to provide a summary of inventory on-hand to identify where empty MTE
may be available for redistribution and enable the assessment of reporting and
compliance over a period of time. However, the on-hand inventory counts were not
accurate because plant managers did not always provide sufficient priority, resources,
training, and oversight to effectively manage MTE and Area management did not assign
sufficient resources to monitor MTE activities and compliance with all SOP
requirements.14 Weekly on-hand inventory counts that were conducted did not include
the MTE loaned to major mailers and other external customers because the Area MTE
SOP did not require it. Further, the Area was not consistently consolidating counts from
plants for use in inventory management or validating the on-hand inventory counts at
plants nor ensuring compliance.

Accountability for MTE. We found that, although all plants reviewed generally kept
records of distributed MTE to mailers and customers, they did not have visibility over the
MTE flow once it left the plants and did not use the records to manage, track or
reconcile to establish accountability. Specifically, we determined that most plants were
not:

        Advising mailers of their responsibilities and liabilities (16 of 20 plants).


12
   The Pacific Area published its MTE SOP to set policies and establish responsibilities and procedures for effective
management of MTE and to ensure compliance with national MTE policies. The Pacific Area last updated its SOP in
March 2006 and delineates area and plant MTE responsibilities and oversight.
13
   Due to data limitations and lack of records, we could not determine plant reporting and compliance over time.
Further, the consolidated weekly inventory count reports we did review were limited to May 2009.
14
   The Pacific Area was not consistently consolidating plant results for use in inventory management and was not
testing and validating the on-hand inventory counts at plants. In addition, they did not follow up with the plants that
did not submit the weekly counts.


                                                          10
Management of Mail Transport Equipment –                                                              NL-AR-10-001
 Pacific Area


        Conducting reviews/audits of MTE loaned to mailers and other external
         customers (15 of 20 plants).

        Ensuring that loaned MTE was not abused and was returned timely (16 of 20
         plants).

        Reconciling MTE loaned to mailers or other external customers against what is
         returned to the Postal Service (20 of the 20 plants).

        Authenticating mailers and other external customers who requested and received
         MTE (18 of the 20 plants).




     Postal Service pallets used to store equipment used in         Postal Service hampers used to construct
     a mailer’s internal operations at Transamerican Mailing                    a makeshift desk at
                          and Fulfillment.                                mailer Starcrest of California.
                  Escondido, CA, April 23, 2009.                           Perris, CA, January 15, 2009.


This occurred because plant managers did not always provide sufficient priority,
resources, training, and oversight to effectively manage MTE. Further, Pacific Area
management did not assign sufficient resources to monitor MTE management and
compliance with all SOP requirements. In addition, the SOP does not address
accountability controls over authenticating mailers and other external customers and
reconciling MTE loaned to mailers and other external customers.

MTE Security Controls. We determined that security controls were not sufficient to
ensure the safeguarding of MTE. Specifically, we observed:

        Facilities generally stored MTE outside in the yard or around the docking area,
         sometimes exposed to the elements, leaving equipment at risk of damage.

        Facilities did not use gates to secure the perimeter and restrict access to the
         facility yard15 (six of 20 facilities).




15
  Of the six facilities, gates were left open or not used at five and visitors were buzzed in without checking for proper
identification at one unmanned gate.


                                                               11
Management of Mail Transport Equipment –                                                                NL-AR-10-001
 Pacific Area


         Mailers had unsupervised access to facility yards, where there were no controls
          to monitor mailer activity once inside the yard16 (18 of 20 facilities).

         MTE storage areas were not locked or secured (20 of 20 facilities).



                                                                      Excess equipment is stored
                                                                   outdoors, exposed to the elements.

                                                                          City of Industry, CA,
                                                                          December 17, 2008.




This occurred because the Area SOP does not specifically address controls over the
safeguarding of MTE assets although the Postal Service’s accountability controls for all
assets apply to the security of MTE.17




         Unprocessed, excess MTE stored outdoors in a tent                  Rolling stock stored outdoors
                      at the Stockton P&DC.                                in a public parking lot adjacent
                   Stockton, CA, May 15, 2009.                    to the North Bay Delivery and Distribution Center
                                                                             Petaluma, CA, May 13, 2009.


Impact of Ineffective Controls

As a result of the ineffective controls, delays may impact mail processing and
transportation because some plants may not have enough MTE to move the mail. On
the other hand, some plants may have too much MTE, causing overcrowding, which
may negatively impact processing operations. In addition, the Postal Service may be
unnecessarily purchasing MTE because of unaccounted for or improperly stored
equipment. Further, some MTE assets in the Pacific Area are at risk of loss, theft, and
misuse and could present a danger to public safety and security and reflect poorly on
the Postal Service’s brand and public image.



16
   At six of the 20 facilities reviewed, employees advised us that they have found MTE missing and taken without their
knowledge or oversight and concluded mailers were helping themselves to MTE. Employees also concluded that
mailers were coming in on weekends to help themselves to MTE and removed cardboard boxes staged for recycling
or reuse.
17
   While the Pacific Area SOP does not address security controls to safeguard MTE, Postal Service Handbook
AS-701, Material Management, establishes policies and responsibilities to safeguard all Postal Service assets.
Specifically, Section 128 provides that managers have material accountability for all assets within their facility and are
responsible for ensuring the security and proper use of all Postal Service property under their jurisdiction.


                                                             12
Management of Mail Transport Equipment –                                  NL-AR-10-001
 Pacific Area


We could not determine the specific impact of weak controls over the inventory of,
accountability for, and safeguarding of MTE in the Pacific Area. However, it should be
noted that the Postal Service estimated 1.8 million plastic pallets (with an estimated
value of over $36 million) leaked from its network nationwide during FYs 2006 and
2007. These pallets were unaccounted for over the last few years and are missing from
the nationwide network. Additionally, recent coordinated efforts between the Postal
Service and Postal Inspection Service resulted in the identification and recovery of over
260,000 pieces of MTE nationally valued at about $2 million – most of which involved
unauthorized use at external customers or unauthorized possession by other parties,
such as recyclers.




                                           13
Management of Mail Transport Equipment –                                                              NL-AR-10-001
 Pacific Area


       APPENDIX C: FACILITIES, CONTRACTORS AND MAILERS REVIEWED18

           Pacific
                         Postal Service
            Area                                    Location                              Name
                          or External
           District
        Bay Valley      Postal Service     Oakland, CA                    Oakland P&DC
                        Facilities         Richmond, CA                   San Francisco BMC
                                           San Jose, CA                   San Jose P&DC
                                           Fresno, CA                     Fresno P&DC
                                           Salinas, CA                    Salinas P&DF


                        Mailers            Napa, CA                       Regulus
                                           Newark, CA                     Valassis
                                           San Leandro, CA                Mercury Mail Service

                        MTESC              Richmond, CA                   San Francisco MTESC


        Los             Postal Service     Bell, CA                       Los Angeles BMC
        Angeles         Facilities         Los Angeles, CA                Los Angeles P&DC


        Sacramento      Postal Service     West Sacramento, CA            Sacramento P&DC
                        Facilities         Stockton, CA                   Stockton P&DC
                                           Redding, CA                    Redding P&DC
                                           Marysville, CA                 Marysville P&DF

                        Mailers            El Dorado Hills, CA            DST Output


        Sierra          Postal Service     Santa Clarita, CA              Santa Clarita P&DC
        Coastal         Facilities


        San Diego       Postal Service     San Diego, CA                  Margaret Sellers P&DC
                        Facilities         San Bernardino, CA             San Bernardino P&DC

                        Mailers            Perris, CA                     Starcrest of California
                                           Escondido, CA                  Transamerican Mailing & Fulfillment
                                           Carlsbad, CA                   Modern Postcard


        San             Postal Service     San Francisco, CA              San Francisco P&DC
        Francisco       Facilities         Petaluma, CA                   North Bay P&DC


        Santa Ana       Postal Service     Santa Ana, CA                  Santa Ana P&DC
                        Facilities         Anaheim, CA                    Anaheim P&DF
                                           City of Industry, CA           City of Industry P&DC
                                           Long Beach, CA                 Long Beach P&DC

                        Mailers            Rancho Cucamonga, CA           UPS Innovations
                                           Chino, CA                      FedEx SmartPost
                                           Chino, CA                      Motivational Fulfillments
                                           Irwindale, CA                  Tribune Direct

                        MTESC              Ontario, CA                    Los Angeles MTESC

                        Other              Ontario, CA                    Ontario THS




18
   We reviewed 20 Postal Service facilities throughout the Pacific Area, as well as contractors and mailers. Selected
facilities covered all seven Postal Service Districts in CA. We did not review operations in the Pacific Area’s Hawaii
District.


                                                           14
Management of Mail Transport Equipment –                  NL-AR-10-001
 Pacific Area


                      APPENDIX D: MANAGEMENT’S COMMENTS




                                           15
Management of Mail Transport Equipment –        NL-AR-10-001
 Pacific Area




                                           16
Management of Mail Transport Equipment –        NL-AR-10-001
 Pacific Area




                                           17
